               

               

                     U.S. ENVIRONMENTAL PROTECTION AGENCY 

                     OFFICE OF INSPECTOR GENERAL 



                     Complaints Regarding
                     Debris Management at the
                     West, Texas, Fertilizer Plant
                     Explosion Have Been Addressed
                     Report No. 14-P-0123                    February 24, 2014




Scan this mobile
code to learn more
about the EPA OIG.
Report Contributors:                                Roopa Batni
                                                    Steve Hanna
                                                    Tina Lovingood




Abbreviations

EPA             U.S. Environmental Protection Agency
OIG             Office of Inspector General
POLREP          Pollution Report
TCEQ            Texas Commission on Environmental Quality


Cover photo:	     Damaged volumetric tanks and equipment at the Adair Grain Inc. Fertilizer
                  Plant in West, Texas. (EPA photo)



Hotline 	                                      Suggestions for Audits or Evaluations
To report fraud, waste or abuse, contact       To make suggestions for audits or evaluations, 

us through one of the following methods:       contact us through one of the following methods:


email:    OIG_Hotline@epa.gov                  email:    OIG_WEBCOMMENTS@epa.gov
phone:    1-888-546-8740                       phone:    1-202-566-2391
fax:      1-202-566-2599                       fax:      1-202-566-2599
online:   http://www.epa.gov/oig/hotline.htm   online:   http://www.epa.gov/oig/contact.html#Full_Info

write:	   EPA Inspector General Hotline        write:    EPA Inspector General 

          1200 Pennsylvania Avenue, NW 
                 1200 Pennsylvania Avenue, NW
          Mailcode 2431T                                 Mailcode 2410T 

          Washington, DC 20460
                          Washington, DC 20460
                        U.S. Environmental Protection Agency 	                                                  14-P-0123
                                                                                                         February 24, 2014
                        Office of Inspector General


                        At a Glance
Why We Did This Review
                                    Complaints Regarding Debris Management
The U.S. Environmental
Protection Agency (EPA)
                                    at the West, Texas, Fertilizer Plant Explosion
Office of Inspector General         Have Been Addressed
received an anonymous hotline
complaint about the EPA’s
                                     What We Found
management of debris at the
Adair Grain Inc. Fertilizer Plant
                                    The hotline complaint alleged that debris was
explosion site in West, Texas,                                                              Debris from a fertilizer
                                    removed from the West Fertilizer explosion site
known as the West Fertilizer                                                                plant explosion was moved
                                    and “dumped” onto two private properties across         without EPA or TCEQ
explosion.
                                    the road into two “enormous” piles and was              knowledge but is being
                                    possibly hazardous. We substantiated that there         managed. A water main
On April 17, 2013, an
                                    were two debris piles, but they were not found to       break existed under the
anhydrous ammonia explosion
                                    be hazardous. EPA and TCEQ staff stated the             debris but has been
occurred at the plant, killing                                                              addressed. The debris was
                                    debris was moved onto the two properties
14 people and injuring about                                                                found to be non-hazardous.
                                    without their knowledge by another federal
200. Local, state and federal
                                    agency.
law enforcement and response
personnel responded.
                                    The hotline complaint also alleged that there was a leaking water main below the
EPA Region 6 staff provided
                                    two debris piles, which could have been contaminated from seepage from the
oversight of a responsible party
                                    two piles. We substantiated this allegation. However, according to the
removal action to address
                                    Cottonwood Water Supply, which manages the water supply to the properties,
immediate threats from
                                    the water main was disconnected after the explosion. We identified one issue
ammonium nitrate and
                                    associated with this allegation—the EPA Region 6 report of its response
anhydrous ammonia. Removal
                                    oversight activities at the West Fertilizer plant explosion incorrectly stated that the
began April 17, 2013, and was
                                    water main was managed by the city of West rather than Cottonwood Water
completed May 3, 2013.
                                    Supply. In response to our concern, Region 6 corrected its report.
Other removal activities were
performed by the Texas
                                    Further, the hotline complaint alleged that there are no immediate plans by the
Commission on Environmental
                                    EPA or TCEQ to address the two debris piles. We did not substantiate this
Quality (TCEQ) with oversight
                                    allegation. TCEQ informed us that the sites were fenced off and that most debris
by EPA Region 6.
                                    has been disposed or recycled.
This report addresses the
following EPA theme:                Since EPA Region 6 staff have addressed the one concern we identified,
                                    regarding reference to the correct water supply company in the response
Taking action on toxics and      oversight report, we make no recommendations.
   chemical safety.



For further information,
contact our public affairs office
at (202) 566-2391.

The full report is at:
www.epa.gov/oig/reports/2014/
20140224-14-P-0123.pdf
                       UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                    WASHINGTON, D.C. 20460


                                                                                THE INSPECTOR GENERAL




                                        February 24, 2014

MEMORANDUM

SUBJECT:	 Complaints Regarding Debris Management at the West, Texas,
          Fertilizer Plant Explosion Have Been Addressed
          Report No. 14-P-0123

FROM:	         Arthur A. Elkins Jr.

TO:	           Ron Curry, Regional Administrator
               Region 6

This is our report on the subject review conducted by the Office of Inspector General (OIG) of
the U.S. Environmental Protection Agency (EPA). This report contains findings identified by the
OIG. This report represents the opinion of the OIG and does not necessarily represent the final
EPA position. The Region 6 office responsible for the issues reviewed is the Superfund Division,
Prevention and Response Branch.

Because this report contains no recommendations, you are not required to respond to this
report. However, if you submit a response, it will be posted on the OIG’s public website,
along with our memorandum commenting on your response. Your response should be
provided as an Adobe PDF file that complies with the accessibility requirements of
Section 508 of the Rehabilitation Act of 1973, as amended. The final response should not
contain data that you do not want to be released to the public; if your response contains
such data, you should identify the data for redaction or removal along with corresponding
justification. We have no objections to the further release of this report to the public. We
will post this report to our website at http://www.epa.gov/oig.

If you or your staff have any questions regarding this report, please contact Assistant Inspector
General for Program Evaluation Carolyn Copper at (202) 566-0829 or copper.carolyn@epa.gov,
or Director for Land Cleanup and Waste Management Tina Lovingood at (202) 566-2906 or
lovingood.tina@epa.gov.
Purpose
                The U.S. Environmental Protection Agency (EPA) Office of Inspector General
                received a complaint from an anonymous source that raised questions about the
                EPA’s management of debris from the explosion at the Adair Grain Inc. Fertilizer
                Plant in West, Texas. We examined the following allegations:

                    	 Debris, possibly containing hazardous substances including pesticides and
                       herbicides, was placed in large piles on two properties adjacent to the
                       West fertilizer plant.
                    	 Contamination from the two piles was potentially leaking into the local
                       drinking water supply system through a broken water main directly
                       beneath the two properties.
                    	 There are no immediate plans by the Texas Commission on Environmental
                       Quality (TCEQ) or EPA to address the piles and possible contamination.

Background
                On April 17, 2013, a fire caused an anhydrous ammonia explosion at the
                Adair Grain Inc. Fertilizer Plant in West, Texas, known as the West Fertilizer
                explosion. The explosion caused multiple fires within a half-mile radius and
                resulted in 14 deaths and about 200 injuries.

                TCEQ and EPA Region 6 mobilized staff to the site to conduct air monitoring.
                The responsible Region 6 office was the Superfund Division, Prevention and
                Response Branch. Region 6 staff provided oversight of a responsible party
                removal action to address immediate threats from ammonium nitrate and
                anhydrous ammonia. This removal began April 17, 2013, and was completed
                May 3, 2013. According to Region 6 pollution reports1 (POLREPs), the EPA met
                with representatives of TCEQ and the West fertilizer plant to establish deadlines
                for site investigation activities and removal and disposal of existing hazardous
                materials. During the meeting, it was determined that TCEQ would provide
                oversight of removal activities, with Region 6 coordinating as needed to ensure
                the removal action was complete. According to Region 6 staff, in responses such
                as this one, its priority and objective is to coordinate with responding agencies
                and assist or lead in responding to the release of hazardous substances.

Scope and Methodology
                We conducted our review from July 2013 to January 2014 in accordance with
                generally accepted government auditing standards. Those standards require that
                we plan and perform our review to obtain sufficient, appropriate evidence to
                provide a reasonable basis for our findings and conclusions based on our

1
  The National Contingency Plan (40 CFR 300.135(m)) requires the On-Scene Coordinator to document emergency
response actions in pollution reports.

14-P-0123                                                                                                 1
            objectives. We believe that the evidence obtained provides a reasonable basis for
            our findings and conclusions based on our objectives.

            To make a determination on the allegations, we interviewed staff in EPA
            Region 6, the TCEQ and local water supply agencies. We reviewed
            documentation on the EPA’s POLREP for the incident, TCEQ documents on
            debris removal, information on the city of West’s website, and other public
            Internet documents on the explosion.

Review Results
            EPA Region 6 and TCEQ staff confirmed that debris had been moved from the
            explosion site and placed on two private properties located across the road from
            the plant. Region 6 and TCEQ staff said the debris was placed on these properties
            without their knowledge by another federal agency. TCEQ staff further stated that
            fencing had been placed around the two properties and the debris was determined
            to be non-hazardous. Region 6 staff stated that TCEQ would oversee removal of
            the debris at the two properties by the responsible party contractor.




            Example of residential damage from the explosion. (EPA photo)


            TCEQ staff confirmed they were aware of the broken water main and had been
            informed that the system was holding pressure—an indication of system integrity.
            They indicated the city of West operated the water system. City staff informed us
            that they do not supply water to the two sites in question and referred us to
            Cottonwood Water Supply. Staff at Cottonwood said they were aware of the
            break in their water main and the water main in question was disconnected after
            the explosion. They further stated that they perform daily monitoring. However,
            we noted that in a discussion of a broken water main associated with debris piles,


14-P-0123                                                                                       2
            the EPA Region 6 POLREP referred to the city of West and did not reference
            Cottonwood Water Supply. TCEQ staff confirmed they mistakenly referred to the
            city of West water supply system rather than the Cottonwood system. EPA
            Region 6 staff have corrected the POLREP to indicate the water main is under the
            jurisdiction of Cottonwood Water Supply.

            According to TCEQ staff, debris removal at the two properties is complete. The
            debris removed was tested, found to be non-hazardous, and was appropriately
            recycled or disposed.

            Since EPA Region 6 staff have addressed the one issue we identified by
            correcting the reference to the water supply company in its response oversight
            report, we make no recommendations.




14-P-0123                                                                                    3
                                                                            Appendix A

                                    Distribution
Office of the Administrator
Regional Administrator, Region 6
Agency Follow-Up Official (the CFO)
Agency Follow-Up Coordinator
General Counsel
Associate Administrator for Congressional and Intergovernmental Relations
Associate Administrator for External Affairs and Environmental Education
Deputy Regional Administrator, Region 6
Audit Follow-Up Coordinator, Region 6




14-P-0123                                                                            4
